F03-W739-2

STATE FARM BANK®
CREDIT CARD AGREEMENT AND
DISCLOSURE STATEMENT
This document and the table of Account-Opening Disclosures and other
information printed on the card carrier that accompanies this document
make up your credit card agreement with State Farm Bank. They are
referred to together throughout this document as the Agreement. They
contain important terms and disclosures regarding your credit card
account. Please read them carefully and keep them for future reference.
You will be bound by the terms of the Agreement unless you cancel
your account within 30 days after you receive your credit card and
before you or someone you have authorized uses your credit card or
credit card account.

The Parties to this Agreement

In this Credit Card Agreement and Account Disclosures (this
“Agreement”), the words “you” and “your” refer to each person who
requests that we establish a credit card account (the “Account”) and
issue a Visa® credit card (a “Card”) to that person or for use by another
person. If two or more persons request that we issue credit cards on
the same card Account, the words “you” and “your” mean each and
either of those persons, individually, and also all of those persons,
jointly and severally. The words “we”, “us”, “our” and “State Farm
Bank” mean State Farm Bank, F.S.B., a federal savings bank located
in Bloomington, Illinois. Definitions of additional terms are contained in
other paragraphs of this Agreement.

Your Acceptance of the Terms of this Agreement

If you apply for a Card from us, or use a Card we issue to you, or use
the account number associated with the Card, or if another person
uses the Card or account number with your authorization, you will be
deemed to have accepted and agreed to all of the terms and conditions
of this Agreement.
If you do not wish to be bound by the terms and conditions of this
Agreement, do not use the Card or authorize another person to use it.
Instead, cut all of the Cards in two and return them to us within 30 days
after you receive them.

How to Use Your Card

Subject to the terms of this Agreement, we will make loans to you at
our offices in Bloomington, Illinois when you use your Card (which
term as used in this Agreement includes use of the account number
associated with your Card) as follows:
(a) Purchases. You may use your Card to purchase or lease goods
or services (“Purchases”) from merchants who honor Visa credit
cards. Quasi-cash transactions, described below, are deemed to be
Cash Advances and not Purchases.
(b) Cash Advances.
(1) You may use your Card to obtain a Cash Advance at most
banks that display the Visa logo.
(2) You may use your Card, in conjunction with the personal
identification number (“PIN”) we will issue to you, to obtain a
Cash Advance at automated teller machines (“ATMs”) that bear
the Plus® logo. The operator of the ATM may add a surcharge
to the amount of the Cash Advance you request. If so, the
surcharge will be part of the Cash Advance charged to your
Account.
(3) You may use your Card to establish overdraft protection on a
checking account if permitted by your financial institution. You
obtain a Cash Advance each time your Card is used to fund
such an overdraft.
(4) We may send you blank forms of convenience checks or cash
advance checks (“Convenience Checks” or “Checks”) from
time to time. If we do, you may use a Check to obtain a Cash
Advance by signing and completing the Check in accordance
with the terms on the Check and any written materials that
accompany it. You obtain a Cash Advance each time you use a
Check and we pay it when it is presented to us, including when
you use a Check to purchase or lease goods or services.
(5) You may obtain a Cash Advance when you use your Card
for items that are convertible to cash or similar cash-like
transactions that we may designate from time to time, including
wire transfer money orders, other money orders, travelers
checks, or foreign currency or tax payments (so-called “quasicash” transactions). However, your Card may not be used to
obtain, and we will not honor requests for, a Cash Advance in
the form of casino chips, bets or wagers, gaming transactions
(including Internet gambling), lottery tickets or the like.
(6) Certain establishments may cash your personal checks upon
presentment of your Card. In the event we are required to
pay the amount of a check cashed in this manner because
your check is not paid for any reason, we may charge your
Account for a Cash Advance in the amount of the check and
any processing charge we incur.
(c) Balance Transfers. You may use your Account to transfer
balances from other accounts to your Account with us (a “Balance
Transfer”). You may request a balance transfer by completing the
balance transfer portion of the credit application, by completing and
returning to us one of the balance transfer requests forms we may
send you from time to time, by writing a Balance Transfer check we
may send you or by writing or telephoning us. When you request a
balance transfer, we will write our check or transfer funds to your
other creditor. The amount of our check or funds transfer will be
the amount of your Balance Transfer. Balance Transfers are treated
as Purchases rather than Cash Advances for most purposes under
this Agreement. However, interest charges may begin to accrue as
of the date a balance transfer is posted to your Account. Balance
Transfer transactions will not be processed if made payable to
cash, to you, to any individual, to a deposit account, or to a
State Farm Bank credit card account. If such a Balance Transfer
is processed, State Farm Bank reserves the right to convert the
transaction to a Cash Advance.

Credit Access Line

We will establish a credit access line for your Account from time to
time. Your initial credit access line is shown on the card carrier. Your
current credit access line will be shown on each monthly statement of
your Account. The total amount of credit outstanding on your Account
at any time must not be more than your then current credit access
line. We may also establish at any time a separate credit limit (as a
sub-limit within the overall credit access line for your Account) for
Cash Advances. If we do, your outstanding Cash Advances balance of
your Account must not exceed the Cash Advances credit limit at any
time. We may set similar separate sub-limits for other portions of your
Account balance. We may change your credit access line or sub-limits
from time to time. We will attempt to notify you if we do, but the change
may be effective before you receive notice.

Exceeding Your Credit Access Line

If you request credit in any form which, if granted, would cause either
your total outstanding balance or your Cash Advances balance or other
applicable sub-limit (including, in either case, transactions authorized
but not yet posted to your Account) to exceed your credit access
line, your Cash Advances credit limit, or any other credit sub-limit we
establish for your Account, whether or not those balances were more
than the respective credit access line or credit sub-limits before the
request, we may, refuse to honor the request or in our sole discretion,
we may honor the request and extend the credit. If we extend the credit,
you will not be charged an over-the-credit access line fee, and you
agree to repay the credit and the interest and other charges on it as
part of the balance of your Account in accordance with the terms of
this Agreement. We may extend credit that exceeds the credit access
line and any credit sub-limit applicable to your Account on one or more
occasions without waiving our rights. If we previously honored requests
for credit in excess of your credit access line, that does not mean we
will or must honor further over-the-credit access line requests. If we
refuse to honor a Check or Balance Transfer request, we may advise
the person presenting the Check or Balance Transfer that credit has
been refused or that there are insufficient funds to pay the Check or
Balance Transfer.

INTEREST CHARGES
When Interest Begins to Accrue:
(a) Interest on Purchases. Except as provided in paragraph (b) below,
interest on each Purchase (including a Balance Transfer) will accrue
daily from and including the transaction date until the date each
Purchase is completely repaid according to the payment allocation
method then in effect. If the transaction date was in an earlier billing
cycle than the posting date, interest will accrue from and including
the first day of the billing cycle in which the transaction was posted.
(b) How to Avoid Paying Interest on Purchases. You can avoid paying
interest on Purchase (other than Balance Transfers) posted to your
Account if you pay the entire New Balance of your Account each
month not later than the Payment Due Date shown on your Account
statement. If any portion of the balance of your Account is subject
to an introductory or promotional rate, to avoid paying interest on
Purchases (other than Balance Transfers) posted to your Account
during the billing cycle you must pay the entire New Balance
(including any part of the balance that is subject to the introductory
or promotional rate) shown on the statement of your Account for
that billing cycle by the Payment Due Date shown on the statement.
If you fail to pay the entire New Balance of your Account before
the Payment Due Date in any month, you can again avoid paying
interest on Purchase (other than Balance Transfers) in the manner
described above after you have paid the entire New Balance of your
Account by the Payment Due Date for two consecutive months.
(c) Interest on Cash Advances. Interest on each Cash Advance will
accrue daily from and including the transaction date until the date
each Cash Advance is completely repaid according to the payment
allocation method then in effect. The transaction date for Cash
Advances obtained by a Check is the date we process the Check.
(d) Interest that Accrues Prior to Payment in Full. Interest accrues
on the unpaid balance of your Account as described above until
the date the balance is paid in full, except to the extent paragraph
(b) above applies to Purchases posted to your Account. If you pay
the entire New Balance shown on the monthly statement of your
Account by the Payment Due Date, you will receive a statement
the following month for interest that accrued from the closing date
of the previous billing cycle until the date your payment in full was
posted to your Account, even if no new transactions are posted to
your Account after the closing date of the previous billing cycle. To
minimize the amount of this interest, pay the New Balance in full
immediately upon receipt of your monthly statement.
Periodic Rates and Annual Percentage Rates of the Interest Charge:
The periodic rates we use to compute interest on your Account and the
corresponding annual percentage rates are described below:
(a) Rate of Interest Charge on Purchases. The daily periodic rate we
use to compute the interest on all Purchases balances (including
Balance Transfers) is a variable rate which is the sum of the Prime
Rate plus a margin expressed as a percentage, divided by 365,

except as otherwise provided below for certain introductory rates
and certain promotional rates.
(1) Introductory Rate. The daily periodic rate we use to compute
interest on all Purchases or Balance Transfer offers is the
introductory rate shown on the card carrier. The corresponding
annual percentage rate is shown on the Account-Opening
Disclosures on the card carrier. If you abide by the terms of this
Agreement, the introductory rate will apply for the period of time
shown on the card carrier and at the end of the introductory
rate period the Preferred Pricing rate for Purchases will apply
to the remaining introductory Purchase or Balance Transfer
balances on your Account. If there is no space for disclosure
of an introductory rate on the card carrier or if a space for an
introductory rate is shown on the card carrier and is completed
with “N/A” or is blank, an introductory rate does not apply on
your Account.
(2) Preferred Pricing. The Preferred Pricing daily periodic rate
we use to compute interest on Purchases (including Balance
Transfers other than Balance Transfers that are subject to any
applicable introductory rate) is a variable rate equal to the sum
of the Prime Rate plus the margin shown on the card carrier
divided by 365. The current Preferred Pricing daily periodic rate
of interest on Purchases (including Balance Transfers) is shown
on your card carrier and the corresponding annual percentage
rate of interest is shown in the Account-Opening Disclosures on
the card carrier.
(3) Promotional Rates. From time to time we may offer you certain
promotional interest rates for certain types of transactions
or certain parts of your Account balance. If you qualify for
and accept the offer, the daily periodic interest rate of the
promotional rate and the corresponding annual percentage
rate will apply to the balance or portion of the balance of your
Account in accordance with the terms of the promotional
rate offer. At the end of the promotional rate period, Preferred
Pricing for Purchases will apply to your Account.
(b) Rates of Interest on Cash Advances. The daily periodic rate we
use to compute the interest on all Cash Advances is a variable rate
which is the sum of the Prime Rate plus a margin expressed as a
percentage, divided by 365.
(1) Preferred Pricing. The daily periodic rate we use to compute
the interest on Cash Advances balances is a variable rate equal
to the sum of the Prime Rate plus the margin shown on the
card carrier divided by 365. The current Preferred Pricing daily
periodic rate of interest on Cash Advances is shown on the card
carrier, and the corresponding annual percentage rate of interest
is shown in the Account-Opening Disclosures on the card
carrier.
(c) Variable Rates of the Interest. The Interest rates under
subparagraphs (a) and (b) above, other than any applicable
introductory rate on balance transfers or Purchases are variable
rates based on the Prime Rate published in the “Money Rates” table
in The Wall Street Journal. The interest rates and the corresponding
annual percentage rates of interest charged under this Agreement
may increase if the Prime Rate increases. The effect of an increase
in the Prime Rate will be an increase in the amount of the Total
Minimum Payment Due under this Agreement. We will calculate the
interest rates applicable to your Account every month based on the
Prime Rate published in the “Money Rates” table in The Wall Street
Journal as of your statement closing date for the billing cycle. If
two or more Prime Rates are published on that day, the highest of
those rates will be used to calculate the rates of the interest under
this Agreement. If your statement closing date is a day on which
The Wall Street Journal was not published, the previous business
day on which The Wall Street Journal was published will be used. If
The Wall Street Journal ceases publication, or no longer publishes
the prime rate, or changes the manner by which its prime rate is
determined, we may select another comparable index of short-term
interest rates to be the “Prime Rate” under this Agreement. The
new annual percentage rates, and the new daily periodic interest
rates calculated by dividing the new annual percentage rates by
365, will apply to your Account beginning as of the first day of
the billing cycle of your Account during which the new annual
percentage rates and the corresponding daily periodic rates were
calculated, and will continue to apply until new annual percentage
rates and the corresponding daily periodic rates are calculated and
have become effective in the manner described in this paragraph.
The new annual percentage rates and the corresponding new daily
periodic interest rates will apply retroactively to the first day of the
billing cycle, and transactions that occurred during the billing cycle
both prior to and after the date the new annual percentage rates
were calculated will be subject to the new annual percentage rates
and the corresponding new daily periodic interest rates for the entire
billing cycle.
Calculating the Balances to which the Periodic Interest Rates
Are Applied: We calculate an “average daily balance” separately for
Purchases (including Balance Transfer, but excluding any introductory
period Balance Transfers), Cash Advances, any introductory period
Balance Transfers then in effect, and any special rate offers then in
effect. To get the “average daily balance” of your Account we take the
beginning balance of your Account each day for each of these types of
transactions, add any new Purchases (including Balance Transfers, but
excluding any introductory period Balance Transfers and introductory
period Purchases), Cash Advances, introductory period Balance
Transfers and other special rate offers (as applicable), and subtract
any payments and other credits applied to that type of transaction under
the payment allocation method then in effect. This gives us the daily
balance for each of these types of transactions. (Credit balances are
treated as zero for purposes of calculating the daily balances.) Then, we
add all of the daily balances for the billing cycle for each of these types
of transactions and divide the respective totals by the number of days
in the billing cycle. This gives us the “average daily balance” for your
Account for each of these types of transactions.
Calculating Interest and Other Finance Charges; Minimum Interest
Charge: We figure the interest on Purchases (including Balance
Transfers) and Cash Advances charged to your Account by multiplying
each of the “average daily balances” of your Account by the applicable
daily periodic rate of interest and then by the number of days in the
billing cycle, and by adding the resulting products together. We then
add any transaction fee finance charges, each calculated as provided
below. If the amount of finance charge calculated as described above is
more than zero but less than $1.50, a minimum monthly finance charge
of $1.50 will be charged to your Account. We may, at our election,
waive the finance charge on small Account balances.

Finance Charges

(a) Cash Advance Fee: If you use your Card or a Check (Convenience
Check) to obtain a Cash Advance, we will charge your Account
a Cash Advance fee equal to 5% of the U.S. dollar amount of the
Cash Advance, subject to a minimum fee of $10 for each Cash
Advance.
(b) Balance Transfer Fee: If you make a Balance Transfer to your
Account, we will charge your Account a Balance Transfer fee equal
to 3% of the U.S. dollar amount of the Balance Transfer transaction,
subject to a minimum fee of $10.
(c) International Transaction Fee: If you use your Card to make
an international transaction, we will charge your Account an
International Transaction fee equal to 3% of the U.S. dollar amount
of the transaction. An international transaction is defined as any
transaction that was acquired in any country other than the United
States.

Penalty Charges

The following fees will be charged to your Account as a Purchase in the
billing cycle in which the event occurs:
(a) a Late Payment Fee if we do not receive payment in an amount
at least equal to the Total Minimum Payment Due shown on the
monthly statement of your Account by the Payment Due Date
shown on the statement. The amount of the Late Payment Fee will
be:
(i) an amount equal to your Total Minimum Payment Due if your
Total Minimum Payment Due is less than $27; or
(ii) $27 if your Total Minimum Payment Due is $27 or more.
(b) a Returned Payment Fee if a check or draft you send us as a
payment on your Account is returned for insufficient funds or for
any other reason. The amount of the Returned Payment Fee will be:
(i) an amount equal to your Total Minimum Payment Due if your
Total Minimum Payment Due is less than $27; or
(ii) $27 if your Total Minimum Payment Due is $27 or more.
(c) a Returned Check Fee if we return a Check unpaid for any reason.
The amount of the Returned Check Fee will be:
(i) an amount equal to your Total Minimum Payment Due if your
Total Minimum Payment Due is less than $27; or
(ii) $27 if your Total Minimum Payment Due is $27 or more.
However, the amount of the Late Payment Fee, Returned Payment Fee,
and Returned Check Fee will be $38 if you also incurred the same fee
on your Account within the immediately preceding six billing cycles of
your Account.

Other Charges

The following fees will be charged to your Account as a Purchase in the
billing cycle in which the event occurs:
(a) a monthly fee as disclosed in the State Farm Bank Credit Protection
Program Terms and Conditions if you have elected to purchase an
optional plan;
(b) a Statement Reprint Fee of $5 for each copy of a monthly
statement;
(c) a $15 per hour (with a $10 minimum) Account Research Fee
for account research incurred in servicing your account at your
request; and
(d) Unless prohibited by applicable law, the amount of any costs we
incur in complying with state abandoned or unclaimed property
laws with regard to your Account.

Repayment; Total Minimum Payment Due Each Month

You promise to pay us the amounts of all credit you obtain through the
use of your Card (including all Purchases, Balance Transfers and Cash
Advances), all transaction fees and other charges we assess against
your Account and all interest and other finance charges as provided in
this Agreement. You agree to make your payments in the amounts and
at the times provided in this Agreement. Time is of the essence. We will
provide a statement of your Account at approximately monthly intervals
if there has been activity on your Account, a finance charge is assessed
during the preceding month, or there is a balance (credit or debit)
in your Account exceeding $1, unless we deem your Account to be
uncollectible, or we have instituted delinquency collection procedures,
or we have charged off the Account, or furnishing the statement would
violate federal law. You may pay any amount up to the entire unpaid
balance (the “New Balance”) of your Account at any time. You agree
. . . CONTINUED ON REVERSE SIDE

to pay each month at least the amount of the Total Minimum Payment
Due shown on your monthly statement by the Payment Due date shown
on the statement. The monthly Minimum Payment Due is 1% of the
New Balance (less interest charges, Late Fees, and any other amount
exceeding your credit access line and then rounded to the nearest
$5.00) + Interest Charges + Late Fees + any Past Due Amounts
+ any amount by which your Account balance exceeds your credit
access line if the exceeded amount was due to transactions posted
in the current cycle, or $25, whichever is the greater (or your entire
New Balance if less than $25). The Payment Due Date will be at least
24 days after the Closing Date. If you overpay, or if a credit balance
is otherwise created in your Account, we will not pay interest on that
amount. We reserve the right to reject or return any payment if it would
create a, or add to an existing, credit balance as of the day we receive
that payment. Your payments are not deemed to be received until
they are posted to your Account. See the monthly statement of your
Account for details on timely posting of payments. Mail your payment,
accompanied by the payment remittance stub, using the envelope
enclosed with your monthly statement or to the payment address
provided on the monthly statement. Or make your payment online by
going to statefarm.com.
The crediting of payments sent to any location other than the payment
address or received in any other manner may be delayed. Do not
send correspondence of any type to the payment address. When you
provide a check as payment, you authorize us either to use information
from your check to make a one-time electronic fund transfer from
your Account or to process the payment as a check transaction.
When we use information from your check to make an electronic
fund transfer, the funds may be withdrawn from your account on
which the check is drawn as soon as the same day we receive your
payment and you will not receive your check back from your financial
institution. For inquiries about your account, please call us toll-free at
877-SF4-VISA (877-734-8472) or write us at P.O. Box 87, Deposit,
New York 13754-0087.
Your payments will be allocated among the charges on your Account
in any manner we determine that is consistent with the requirements
of applicable law, without regard to any contrary instructions from you
If different annual percentage rates apply to different balances of your
Account, we will allocate any amount you pay in excess of the required
Total Minimum Payment Due first to the balance with the highest annual
percentage rate and any remaining portion to the other balances in
descending order based on the applicable annual percentage rate in
a manner that complies with applicable regulations and regulatory
guidance. Even though your payment may be credited to your Account
in the billing cycle in which the payment is received, your available
credit may not be increased by the amount of the payment until your
payment has cleared.
If you pay more than the Total Minimum Payment Due you will not
thereby prepay or postpone the due date of payments in the following
months and you will continue to be obligated to make the Total
Minimum Payment Due amount (if any) shown on your monthly
statements in succeeding months.
Payments must be made in U.S. dollars, and we may refuse to accept
checks not denominated in U.S. dollars. You agree not to use a State
Farm Bank Balance Transfer, Convenience Check, or the proceeds of a
Cash Advance to make any payment on your Account.

Our Right to Require Immediate Payment

Subject to our giving any notice required by law and to any other
limitations imposed by law, you will be in default and, at our election,
we can require you; to pay immediately all amounts you owe us
under this Agreement without notice or demand if (1) you fail to pay
any amount you owe under this Agreement exactly when due; or (2)
your Account balance exceeds your credit access line, or if we have
established a separate Cash Advances credit limit or other credit sublimit for your Account, your Cash Advances balance exceeds your Cash
Advances credit limit or you exceed any other credit sub-limit of your
Account; or (3) you fail to abide by any other term of this Agreement;
or (4) your ability to pay us is materially impaired (including, without
limitation, if you file or have filed against you as debtor a proceeding
under any chapter of the Bankruptcy Code); or (5) you die or become
incapacitated; or (6) you are in default on any other credit account or
loan you have with us.

Collection Costs

If you are in default, unless prohibited by applicable law, you agree
to pay us or reimburse us for all costs and disbursements, including
reasonable attorney’s fees, we pay or incur in legal proceedings
(including bankruptcy proceedings) to collect or enforce the debt you
owe under this Agreement.

Transactions Made in Foreign Currencies

If a transaction is made in a foreign currency, we and Visa International
will convert the transaction into a U.S. dollar amount. Visa will act in
accordance with their operating regulations or conversion procedures
in effect at the time the transaction is processed and may use (i) a
rate selected by Visa from the range of rates available in wholesale
currency markets for the applicable central processing date, which
rate may vary from the rate Visa itself receives, or (ii) the governmentmandated rate in effect for the applicable central processing date, in
each instance plus or minus any adjustment determined by Visa or
us. The currency conversion rate calculated in this matter that is in
effect on the processing date may differ from the rate in effect on the
transaction date or the posting date. When any transaction must be
converted back into a foreign currency because of a refund or other
reversed transaction, the same currency conversion formula will apply.

Billing Cycles of Your Account

Each billing cycle of your Account begins on the day after the closing
date shown on the preceding monthly statement of your Account and
ends on the closing date shown on the monthly statement of your
Account for the current month. A billing cycle occurs even if you do not
receive a monthly statement of your Account as otherwise provided in
this Agreement.

Authorized Use of Your Card by Others

If you permit any person to have access to your card or Account
number with the authorization to make a charge, or if you request us to
issue a Card on your Account to another person, you will be liable for
all charges made by that person, including charges you may not have
intended that person to make.

Special Provisions Regarding Checks

You may stop payment on an unpaid Check by providing us with the
check number, dollar amount, and payee exactly as they appear on the
Check. A stop payment request expires six months after the date we
accept your stop payment order unless you renew it in writing within
two weeks prior to the expiration date.
If you post-date a Check, we may honor the Check immediately upon
presentment or return it unpaid, at our election, without in either case
waiting until the date shown on the Check. We are not liable to you for
any loss or expense incurred by you arising out of the action we elect
to take. You may not use a Check or any other Cash Advance to make
a payment under this Agreement or any other credit account you may
have with us.

Certain Limitations on Use of Your Card

Your Account is a consumer credit account. You must not use your
Account primarily for business or commercial purposes, the purchase
of securities or commodities, any unlawful purpose or in any illegal
transaction.

Refusal to Honor Your Card; Refused Authorizations

We will not be liable if any other bank, any ATM, or any seller or lessor
of goods or services refuses to honor your Card or retains your Card
when you attempt to use it. Even though you have available credit
on your Account, we may fail or decline to authorize a particular
transaction due to operational difficulties or, at our discretion, for other
reasons we deem to be appropriate.

Gaming and Wagering Transactions

The State Farm Bank credit card is not to be used for any gaming or
wagering transactions, including transactions for casino chips, bets,
wagers, Internet gambling or any other gaming or wagering transaction.
State Farm Bank will decline transactions for casino chips, bets,
wagers, Internet gambling or any other gaming or wagering transaction.

Suspension or Termination of Your Credit Account

We may suspend or terminate your right to obtain additional credit at
any time, subject only to any limitations under federal law or to the
extent federal law does not preempt state laws, under the laws of the
State of Illinois. All Cards we issue to you or at your request remain our
property, and you agree to return all such Cards to us at our request.
You may terminate your right to obtain additional credit at any time by
cutting all unexpired Cards outstanding on your Account in two and
returning them to us. Your obligations under this Agreement continue
unchanged after your right to obtain credit has been suspended or
terminated by you or by us.

Obligation of Multiple Cardholders

All joint accountholders are individually and jointly responsible for
paying the entire outstanding balance on the Account. If two or more
persons are responsible for paying any outstanding balance, we may
refuse to release any of them from liability until all of the unexpired
Cards outstanding on the Account have been returned to us and the
Account balance is paid in full. The obligations of the other obligated
persons will not be affected by the release or discharge of one or more
of the persons who are responsible for paying all or any part of the
Account.

Amendments; Replacement Cards

Subject to our giving any notice required by law and to any other
limitations imposed by law, we may amend this Agreement at any
time to change, add, or delete provisions upon such notice to you
and subject to such limitations as are required and imposed under
applicable provisions of federal law or to the extent federal law is
not controlling, the laws of the State of Illinois. If a longer minimum
notice period is not specified by applicable federal or Illinois law for
the amendments we propose to make, we may amend this Agreement
upon not less than 15 days notice to you. Unless otherwise provided
by law, any notice of changed terms may be included on or with the
monthly statement of your Account and, the notice period will begin
to run when we mail or deliver the notice to you. If a notice of an
amendment gives you the opportunity to reject the amendment, and
if you reject the amendment in the manner provided in the notice, we
may terminate your right to receive additional credit and may require
you to return all credit devices as a condition of your rejection of
the amendment. If the amendment so provides, and subject to the
requirements of applicable law, the amended Agreement (including
any increased rate or amount of interest or other finance charge and
other increased charges and fees) will apply to both existing and new
balances of your Account, including, subject to the provisions of the
notice of change in terms, all Purchases, Cash Advances and Balance
Transfers after the effective date of the amendment. Any letter, payment
instrument or other communication you direct to us with the intent to
amend this Agreement must be sent to us in writing at: State Farm
Bank, P.O. Box 2326, Bloomington, Illinois 61702-2326. If any such

payment instrument is received at any other address, we may accept
the payment instrument, which will not constitute consideration, and no
amendment to the Agreement shall have been effected. This Agreement
may be amended only by a writing originated by us and sent to you or
a written amendment signed by one of our authorized representatives.
We may replace your Card with another credit card at any time.

Communications Concerning Disputed Debts

Any payment instrument you send us for less than the full balance due
that is marked “paid in full” or similar notation, or that you otherwise
tender in full satisfaction of a disputed amount, must be sent to State
Farm Bank, P.O. Box 2326, Bloomington, Illinois 61702-2326. We
reserve all our rights regarding such instruments. For example, if it
is determined there is no valid dispute or if any such instrument is
received at any other address, we may accept the instrument and you
will still owe any remaining balance. Or, we may refuse to accept any
such instrument by returning it to you, not cashing it, or destroying it.
Satisfaction of your debt for less than the full amount due requires a
written agreement, signed by one of our authorized representatives.

Change of Name or Mailing Address

You must notify us immediately of any change of your name or mailing
address from that shown on your latest monthly statement. The back of
your monthly statement contains a form you may use for this purpose.

Assignment

We may at any time, and without notice to you, assign your Account,
any sums due on your Account, this Agreement, and our rights or
obligations under your Account and this Agreement to any person or
entity. The person or entity to whom we make any such assignment
shall be entitled to all of our rights under this Agreement, to the extent
assigned. You may not assign your rights under this Agreement.

Unauthorized Use of Your Account

If you notice the loss or theft of your credit card or a possible
unauthorized use of your card, you should write to us immediately at:
State Farm Bank, P.O. Box 94, Deposit, New York 13754-0094, or
call us at 877-734-8472. You will not be liable for any unauthorized
use that occurs after you notify us. You may, however, be liable for
unauthorized use that occurs before your notice to us. In any case,
your liability will not exceed $50. Please sign your Card immediately
after you receive it. Please safeguard your Card like you would if it were
cash. Do not disclose your PIN to anyone else.

Monitoring Telephone Conversations

You consent to and authorize us, any of our affiliates, and our marketing
associates to monitor and/or record (unless prohibited by law) any
of your telephone conversations with our representatives or the
representatives of any of such companies.

Information Gathering and Sharing

Please refer to the State Farm® “Notice of Privacy Policy” for our
policies on collecting, using, securing, and sharing nonpublic personal
information. Additional copies of our “Notice of Privacy Policy” are
available by calling us toll-free at 877-SF4-BANK (877-734-2265), on
our website (statefarm.com®), or from your local State Farm agent.
CREDIT REPORTING: State Farm Bank may report information about
your account to credit bureaus, including negative information. Late
payments, missed payments, or other defaults on your account may be
reflected in your credit report. You authorize State Farm Bank to obtain
consumer reports about you until the balance is paid in full and the
account is closed.

DISPUTING ACCOUNT INFORMATION REPORTED TO CREDIT
BUREAUS: We furnish information about your account to credit

bureaus. You have the right to dispute the accuracy of the information
reported by writing to us at: State Farm Bank, F.S.B., ATTN: Credit
Reporting, P.O. Box 2313, Bloomington, IL 61702-2313.

Governing Law

This Agreement, including, without limitation, the interest to be
charged, is governed by Federal law and to the extent Federal law is
not controlling, by the laws of the State of Illinois without regard to its
conflict of laws principles.

Severability; No Waivers

If any part of this Agreement is found to be invalid, the rest remains
effective. Any failure or delay by us in exercising any of our rights or
remedies under this Agreement or under applicable law does not mean
that we will not be permitted to exercise those rights or remedies later.
We may accept late payments or partial payments without losing any
of our rights or remedies. You have not waived under this Agreement
any of your rights or our duties under the Illinois Financial Services
Development Act.

Transactions with Merchants

Return Policy. If a merchant discloses a policy such as “no
returns”,“no refund”, “no return or credit without receipt”, “as is”,
“store credit only”, or “all sales final”, you will be bound by that policy
when you use your Card or Account to buy goods or services from
that merchant. Reservations. When using your Account to make
travel or lodging reservations, obtain the merchant’s cancellation
policy and follow it if you cancel. If you cancel, obtain the merchant’s
cancellation number that it is required to give you. The merchant may
charge you for a cancelled transaction unless you can provide us with
the merchant’s cancellation number. Recurring Transactions. If you
authorize a merchant to charge your Account for repeat transactions
with your Card, you must notify the merchant when you want to
discontinue the repeat transactions or if your Account is closed or
a new Account number is issued by us. Dispute Assistance. If you
disagree with a transaction on your statement or have a dispute with
the merchant as a result of the transaction, you will provide information
or assistance we reasonably request to permit us to investigate the
transaction. Otherwise, you will pay us for any resulting loss we have
(up to the amount of the transaction) unless we are prohibited by
applicable law from holding you liable for our loss. “Your Billing Rights”
controls. If any provision of this paragraph conflicts with any part of the
“Your Billing Rights” section below that is applicable to the particular
transaction, the terms of the “Your Billing Rights” section will control.
YOUR BILLING RIGHTS
Keep this notice for future use.
This notice tells you about your rights and our responsibilities under the
Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement.
If you think there is an error on your statement, write to us at: State
Farm Bank, P.O. Box 1420, Deposit, New York 13754-1420.
In your letter, give us the following information:
(1) Account information: Your name and Account number.
(2) Dollar Amount: The dollar amount of the suspected error.
(3) Description of problem: If you think, there is an error on your bill,
describe what you believe is wrong and why you believe it is a
mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you think
is wrong. You must notify us of any potential errors in writing. You
may call us, but if you do we are not required to investigate any
potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
(1) Within 30 days of receiving your letter, we must tell you that
we received your letter. We will also tell you if we have already
corrected the error.
(2) Within 90 days of receiving your letter, we must either correct the
error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as
delinquent on that amount.
• The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit access line.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the
amount in question, along with applicable interest and fees. We will
send you a statement of the amount you owe and the date that it is
due. We may then report you as delinquent if you do not pay the
amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you
must write to us within 10 days telling us that you still refuse to pay. If
you do so, we cannot report you as delinquent without also reporting
that you are questioning your bill. We must tell you the name of
anyone to whom we reported you as delinquent, and we must let those
organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the
first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to
pay the, remaining amount due on the purchase.
To use this right, all of the following must be true:
(1) The purchase must have been made in your home state or, within
100 miles of your current mailing address; and the purchase
price must have been more than $50. (Note: Neither of these are
necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods or
services.)
(2) You must have used your credit card for the purchase. Purchases
made with cash advances from an ATM or with a check that
accesses your credit card account do not qualify.
(3) You must not yet have fully paid for the purchase. If all of the
criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at: State Farm Bank, P.O. Box 1420,
Deposit, New York 13754-1420.
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not
pay, we may report you as delinquent.
Notice for Married Wisconsin Residents. No provision of any marital
property agreement, unilateral statement, or court order applying to
marital property will adversely affect State Farm Bank interests unless
prior to the time credit is granted, State Farm Bank is furnished with a
copy of the agreement, statement or court order, or State Farm Bank
has actual notice of the provision. Married Wisconsin residents must
furnish the name and address of their spouse to State Farm Bank at
PO Box 87, Deposit, New York 13754-0087.
F03-W739-2

